<html>
<title> - IS THIS ANY WAY TO TREAT OUR TROOPS? PART III: TRANSITION DELAYS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
    IS THIS ANY WAY TO TREAT OUR TROOPS? PART III: TRANSITION DELAYS

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                HOMELAND DEFENSE AND FOREIGN OPERATIONS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 4, 2011

                               __________

                           Serial No. 112-28

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform



                  U.S. GOVERNMENT PRINTING OFFICE
68-045                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4720372807243234332f222b376924282a69">[email&#160;protected]</a>  

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
DAN BURTON, Indiana                  ELIJAH E. CUMMINGS, Maryland, 
JOHN L. MICA, Florida                    Ranking Minority Member
TODD RUSSELL PLATTS, Pennsylvania    EDOLPHUS TOWNS, New York
MICHAEL R. TURNER, Ohio              CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 DENNIS J. KUCINICH, Ohio
CONNIE MACK, Florida                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
ANN MARIE BUERKLE, New York          GERALD E. CONNOLLY, Virginia
PAUL A. GOSAR, Arizona               MIKE QUIGLEY, Illinois
RAUL R. LABRADOR, Idaho              DANNY K. DAVIS, Illinois
PATRICK MEEHAN, Pennsylvania         BRUCE L. BRALEY, Iowa
SCOTT DesJARLAIS, Tennessee          PETER WELCH, Vermont
JOE WALSH, Illinois                  JOHN A. YARMUTH, Kentucky
TREY GOWDY, South Carolina           CHRISTOPHER S. MURPHY, Connecticut
DENNIS A. ROSS, Florida              JACKIE SPEIER, California
FRANK C. GUINTA, New Hampshire
BLAKE FARENTHOLD, Texas
MIKE KELLY, Pennsylvania

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                     Robert Borden, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director

    Subcommittee on National Security, Homeland Defense and Foreign 
                               Operations

                     JASON CHAFFETZ, Utah, Chairman
RAUL R. LABRADOR, Idaho, Vice        JOHN F. TIERNEY, Massachusetts, 
    Chairman                             Ranking Minority Member
DAN BURTON, Indiana                  BRUCE L. BRALEY, Iowa
JOHN L. MICA, Florida                PETER WELCH, Vermont
TODD RUSSELL PLATTS, Pennsylvania    JOHN A. YARMUTH, Kentucky
MICHAEL R. TURNER, Ohio              STEPHEN F. LYNCH, Massachusetts
PAUL A. GOSAR, Arizona               MIKE QUIGLEY, Illinois
BLAKE FARENTHOLD, Texas


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 4, 2011......................................     1
Statement of:
    Simpson, Lynn, Acting Principal Deputy Undersecretary of 
      Defense for Personnel and Readiness, U.S. Department of 
      Defense; John Medve, Executive Director, VA/DoD 
      Collaboration Service, U.S. Department of Veterans Affairs; 
      and Daniel Bertoni, Director, Education, Workforce and 
      Income Security, U.S. Government Accountability Office, 
      accompanied by Randall B. Williamson, Health Care Team 
      Director, USGAO, and Mark Bird, IT Team Assistant Director, 
      USGAO......................................................     5
        Bertoni, Daniel..........................................    41
        Medve, John..............................................    25
        Simpson, Lynn............................................     5
Letters, statements, etc., submitted for the record by:
    Bertoni, Daniel, Director, Education, Workforce and Income 
      Security, U.S. Government Accountability Office, prepared 
      statement of...............................................    43
    Medve, John, Executive Director, VA/DoD Collaboration 
      Service, U.S. Department of Veterans Affairs, prepared 
      statement of...............................................    27
    Simpson, Lynn, Acting Principal Deputy Undersecretary of 
      Defense for Personnel and Readiness, U.S. Department of 
      Defense, prepared statement of.............................     9
    Tierney, Hon. John F., a Representative in Congress from the 
      State of Massachusetts, prepared statement of..............    78


    IS THIS ANY WAY TO TREAT OUR TROOPS? PART III: TRANSITION DELAYS

                              ----------                              


                         WEDNESDAY, MAY 4, 2011

                  House of Representatives,
Subcommittee on National Security, Homeland Defense 
                            and Foreign Operations,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:30 a.m. in 
room 2154, Rayburn House Office Building, Hon. Jason Chaffetz 
(chairman of the subcommittee) presiding.
    Present: Representatives Chaffetz, Labrador, Gosar, 
Farenthold, Tierney, Welch, Quigley.
    Also present: Representatives Issa, Cummings, Buerkle.
    Staff present: Thomas A. Alexander, senior counsel; Molly 
Boyl, parliamentarian; Kate Dunbar, staff assistant; Adam P. 
Fromm, director of Member liaison and floor operations; Erin 
Alexander, fellow; Jaron Bourke, minority director of 
administration; Kevin Corbin, minority staff assistant; Ashley 
Etienne, minority director of communications; Lucinda Lessley, 
minority policy director; Scott Lindsay, minority counsel; 
Zeita Merchant, minority LCDR, fellow; Dave Rapallo, minority 
staff director; and Donald Sherman and Carlos Uriarte, minority 
counsels.
    Mr. Chaffetz. Welcome. The committee will please come to 
order.
    I appreciate all of you being here on this important topic 
today, and I thank those participants in advance.
    We want to welcome you to this hearing, which is entitled 
Is This Any Way to Treat our Troops? Part III, Transition 
Delays.
    I would like to begin by thanking our military and 
intelligence community for their tireless efforts and heroism, 
as exemplified by the events of this past weekend. The fact 
that Osama bin Laden is no longer the leader of al Qaeda is a 
victory for the United States and those who stand against 
terrorism. A dark chapter in world history is now closed, but 
the fight is far from over.
    I hope we all take time to pause in our own way and 
recognize the victims that have been at the hands of this 
tyrant, but also to thank the men and women who have served so 
tirelessly in the intelligence community, the military, the 
families that have poured their efforts to fight the war on 
terrorism. Undoubtedly, that will continue. But we need to 
thank them in our own way, in our own hearts and in our own 
communities.
    As America redoubles its efforts to defeat global 
terrorism, let us never forget the brave men and women of our 
armed forces who have brought us this far. They have sacrificed 
everything for us, and have for generations. Since 2001, 6,014 
Americans have died in Operations Enduring Freedom, Iraqi 
Freedom, and New Dawn. Another 43,184 people have been injured 
during this time. In Afghanistan alone, these numbers have 
risen dramatically since our current President took office in 
2009. You will see some charts here on the walls.
    The total number of deaths has risen from 155 in 2008 to 
499 in 2010. The total number of injuries has more than 
doubled, from 2,144 in 2008 to 5,226 in the year 2010. There 
have been 81 deaths and 854 injuries this year alone. Some 
wounds are visible and some are not, but were all acquired in 
the defense of our Nation and serving our country.
    Just as our uniformed men and women took the oath to defend 
America, the Federal Government has a duty to provide care for 
them upon their return. Of the two, the Federal Government 
undeniably has the easier end of the equation. Yet we struggle 
to get it right. This is why we are here today.
    The subcommittee will examine issues associated with the 
transition of wounded service members from the Department of 
Defense to the Department of Veterans Affairs. In recent years, 
various oversight bodies have identified significant 
shortcomings in the care and treatment of our veterans. These 
entities include the Government Accountability Office, the 
Independent Review Group commissioned by Defense Secretary 
Gates, Inspectors General, as well as the Dole-Shalala 
Commission. Each has highlighted deficiencies in the 
administrative processing of wounded service members.
    A chief concern is the overly bureaucratic and lengthy 
disability evaluation system. The lack of seamless transition 
process is the source of great frustration for injured combat 
veterans and their families. Under the legacy Disability 
Evaluation System, often referred to as DES, service members 
wait an average, an average, of 540 days from the time they 
receive their medical evaluation from the Department of Defense 
to the time they receive a benefit check from the VA. Let me 
repeat that: 540 days. In some cases, this period is longer 
than the entire active duty enlistment.
    According to reports, there are a number of reasons for 
this delay. These include duplicative medical exams, poor IT 
infrastructure, lack of staffing and others.
    After much criticism, the Department agreed to revamp the 
DESs. In 2007, a pilot program called the Integrated Disability 
Evaluation system was introduced. This program aimed to 
consolidate programs and eliminate the gap in benefits. The 
goal is to reduce the 540 day process to 295 days. The average 
wait, according to a briefing by DOD and VA to committee staff 
is now 335 days. While 335 days is far more preferable than 540 
days, it is still too long. Some of the old problems have yet 
to be resolved. GAO will describe some of those challenges here 
today. We appreciate them being here with us.
    On March 17, 2011, Defense Secretary Gates and VA Secretary 
Shinseki agreed to examine ways to reduce the wait time to 75 
to 150 days. They also agreed to devise an interagency 
electronic health information record. I am trouble it took 
until 2011 for these agreements to be reached. However, I do 
look forward to hearing from our administration witnesses about 
how each department plans to achieve these goals.
    With each new administration, there seems to be a renewed 
enthusiasm to address veterans issues. There is no doubt that 
the Department of Defense, the VA and this President are well-
intentioned and have veterans' best interests at heart. We must 
ensure that the Federal Government is working smartly at each 
step of the way. With the recent increases in the number of 
deaths and injuries in Afghanistan, we have to get this right.
    I look forward to hearing from our panel of witnesses about 
the successes and challenges they face. This subcommittee is 
ready to work with the Departments in whatever way possible to 
ensure the better care of our veterans.
    At this time, I would like to recognize the ranking member 
of the full committee, Mr. Cummings, for 5 minutes.
    Mr. Cummings. Thank you very much, Mr. Chairman. I want to 
thank also our ranking member, who is on his way, Mr. Tierney, 
for convening this hearing today.
    I too join you in saluting our troops, the CIA and all 
those people involved, and certainly too the President of the 
United States, Mr. Obama, for what was done over the last few 
days with regard to Osama bin Laden. I think it is quite 
appropriate, Mr. Chairman, that we sit here today addressing 
the issues confronting people like the Navy Seals, people like 
the young people who are right now at the U.S. Naval Academy in 
my State, and I serve on their board of visitors, who go out 
there, do their job, to protect our freedom, our rights, and 
protect our people. So I salute them and all those who are 
involved in that successful mission.
    Last month, I visited Walter Reed, along with you, Mr. 
Chairman, and the Naval Medical Center, to meet with our 
wounded warriors and their caregivers. We talked with an Army 
sergeant who lost his legs in Laghman Province in Afghanistan, 
an Army captain who lost both legs and several fingers in 
eastern Afghanistan, and a young private from the Midwest who 
lost a leg and was there with his mother.
    And these are very real costs of war. We owe our wounded 
warriors the very best health care when they return from the 
battlefield. For those of us sitting here, and those of you 
sitting at the witness table, it is our duty to make sure that 
the United States makes good on that promise. It is a very, 
very important promise.
    I have often said that this is not, this must not be about 
politics. It must be about purpose. It must be about 
commitments that we have made to our men and women in uniform. 
When the Washington Post published a series of articles in 2007 
detailing the appalling conditions at Walter Reed Army Medical 
center, I was angry and deeply embarrassed by the poor quality 
of care, the terrible conditions and the bureaucratic obstacles 
facing our service members and veterans.
    In the previous Congress, this committee has taken an 
active role in holding DOD and VA responsible for improving the 
care of our wounded warriors. Representative Tierney, to his 
credit, held the very first hearing on this issue in the 110th 
Congress. Back then, I wasn't even on this subcommittee, but I 
appeared with him at his first committee hearing on that, 
subcommittee hearing on that, at Walter Reed.
    And Chairman Chaffetz, by holding today's hearing, you are 
demonstrating your commitment to continuing our committee's 
bipartisan commitment to this cause. This is a situation where 
Republicans and Democrats must not move to common ground, we 
must move to higher ground.
    As a result of these vigorous oversight efforts, the Dole-
Shalala Commission was created to assess longstanding health 
care and disability evaluation issues within DOD and VA. A 
joint DOD-VA senior oversight committee was also established to 
implement many of the recommendations made by the Dole-Shalala 
Commission. One of those recommendations, to improve the 
military's complicated and time-consuming disability evaluation 
system, is in the process of being fully implemented 
nationwide. I have one word for all of those at the witness 
table: we must move with all deliberate speed. Our veterans and 
our servicepeople cannot wait.
    I am encouraged that the new Integrated Disability 
Evaluation System has simplified the process for our wounded 
warriors and reduced the time it takes for veterans to get 
their full benefits. I am proud to say that when the IDES 
process is fully implemented, it will effectively eliminate the 
benefit gap faced by our newly minted veterans.
    But the process is still too time-consuming. We can do 
better. Our service members should not have to wait over a year 
to determine whether they are fit to continue their military 
service and the level of benefits they will receive if they are 
discharged. Even if DOD and VA were meeting their goal of 
completing the IDES process in 295 days, nearly 10 months is 
simply too long for our service members to wait while their 
future hangs in the balance. And by the way, their families are 
also affected greatly.
    DOD and VA must also do more to improve the exchange of 
medical records, given the complicated health conditions facing 
many of our service members when they leave Iraq or 
Afghanistan. It is vitally important therefore that the health 
care providers of these two departments communicate seamlessly. 
As I close, I know that DOD and VA are in the process of 
creating the interagency electronic medical records and I look 
forward to hearing more about the progress today.
    With that, again, Mr. Chairman, I thank you for calling 
this hearing and I yield back.
    Mr. Chaffetz. Thank you. The gentleman yields back.
    I now recognize the chairman of the full committee, Mr. 
Issa of California.
    Mr. Issa. Thank you, Mr. Chairman. It is a distinct honor 
to go after the ranking member, so that I can say I agree with 
everything the ranking member said. This is an issue that goes 
beyond partisanship. This is an issue in which the committee is 
completely united.
    I am honored to have Camp Pendleton in my district, and the 
Wounded Warrior facility that is there. There is no distance 
between Mr. Cummings and myself. I sometimes do see that there 
are reasons that we have 10 months or more in which a marine 
continues to try, or a corpsman, to return to full active duty 
and is working through that. But with the exception of those 
times in which you are clearly trying to help a soldier, 
sailor, marine or airman remain on active duty and that extends 
the determination, I do believe that the process is too slow 
and continues to be, we can do better but we haven't yet done 
it.
    So again, I thank the chairman for holding this hearing, 
and I thank Mr. Cummings for his appropriate remarks, and yield 
back.
    Mr. Chaffetz. The gentleman yields back.
    Members will have 7 days to submit further opening 
statements for the record.
    We will now recognize our panel. Ms. Lynn Simpson is the 
Acting Principal Deputy Undersecretary of Defense for Personnel 
and Readiness. Mr. John Medve is the Executive Director of the 
VA/DOD Collaboration Service. Mr. Dan Bertoni is the Education, 
Workforce and Income Security Team Director at the GAO. Mr. 
Randall Williamson is the Health Care Team Director at the GAO. 
And Mr. Mark Bird is the IT Team Assistant Director at the 
Government Accountability Office.
    We appreciate you all being here today. My understanding is 
that the GAO is going to submit one opening statement, but they 
will all participate in the discussion that we have moving 
forward.
    Pursuant to committee rules, all witnesses will be sworn in 
before they testify. If you would please rise and raise your 
right hands.
    [Witnesses sworn.]
    Mr. Chaffetz. Thank you. You may be seated.
    Let the record reflect that all the witnesses answered in 
the affirmative.
    In order to allow time for discussion, please try to limit 
your verbal testimony to 5 minutes. If there are additional 
materials or statements that you want to put into the record, 
your entire written statement will be made a part of the 
record.
    I again want to thank you for your time, effort, your 
expertise, your commitment to our country. I know your hearts 
are all in the right places. This is a frustrating issue for 
the time that it has taken. But we do want to hear from each of 
you.
    So with that, we will now recognize Ms. Simpson for 5 
minutes.

      STATEMENTS OF LYNN SIMPSON, ACTING PRINCIPAL DEPUTY 
  UNDERSECRETARY OF DEFENSE FOR PERSONNEL AND READINESS, U.S. 
 DEPARTMENT OF DEFENSE; JOHN MEDVE, EXECUTIVE DIRECTOR, VA/DOD 
COLLABORATION SERVICE, U.S. DEPARTMENT OF VETERANS AFFAIRS; AND 
   DANIEL BERTONI, DIRECTOR, EDUCATION, WORKFORCE AND INCOME 
SECURITY, U.S. GOVERNMENT ACCOUNTABILITY OFFICE, ACCOMPANIED BY 
 RANDALL B. WILLIAMSON, HEALTH CARE TEAM DIRECTOR, USGAO, AND 
          MARK BIRD, IT TEAM ASSISTANT DIRECTOR, USGAO

                   STATEMENT OF LYNN SIMPSON

    Ms. Simpson. Thank you, Mr. Chairman.
    Representative Chaffetz, Representative Tierney, members of 
the subcommittee, thank you very much and good morning.
    Thank you for the opportunity and the privilege to testify 
today on our warriors in transition with my colleague from the 
VA, John Medve.
    Taking care of our wounded, ill and injured service members 
is one of the absolute highest priorities of the Department of 
Defense, the service Secretaries and the military chiefs. The 
Secretary of Defense has said that, other than directly 
supporting operations in theater, there is no higher priority 
for the Department of Defense.
    Reforming cumbersome and many times confusing bureaucratic 
processes is absolutely essential to ensuring our service 
members receive, in a timely manner, the care and benefits to 
which they are entitled. The Department's leaders continue to 
work to achieve the highest level of care and management and to 
standardize care among the military services and Federal 
agencies, while maintaining a laser focus on the wide range of 
needs of our wounded, ill and injured service members and their 
families.
    Working closely, carefully and collaboratively between our 
departments is also of the upmost priority. We have established 
governance at the highest levels of our respective departments 
on the wounded, ill and injured issues. The Secretaries of the 
Departments of Defense and Veterans Affairs have met three 
times in the last 90 days with an increased attention on the 
Disability Evaluation System and electronic health records and 
have committed also to meet quarterly to continue the dialog to 
resolve these critical areas of collaboration between our 
departments.
    The Secretary of Defense had directed the establishment of 
the Department of Defense, Department of Veterans Affairs, 
Senior Oversight Committee, referred to as the SOC, on May 3, 
2007. It was established to ensure that recommendations from 
the groups that many of you referenced were integrated, 
implemented and resourced. The Senior Oversight Committee's 
purpose is to ensure interagency oversight to streamline, 
deconflict and expedite efforts to improve the health care 
process, disability processing and the seamless transition of 
service member to veteran status. The Deputy Secretaries of 
both Departments serve as co-chairs.
    The overarching purpose of the Senior Oversight Committee 
is to establish a world class, seamless continuum of care that 
is efficient and effective. The SOC has had a lengthy record of 
accomplishments over its 4 years of existence in direct support 
of and caring for our wounded, ill and injured. I want to offer 
a few of the accomplishment highlights: reducing the gap in 
time service members receive veterans' benefits after 
separation; developing new approaches to address psychological 
health, to include traumatic brain injury and post-traumatic 
stress; expanding the implementation of the Integrated 
Disability Evaluation System; providing transitioning service 
members' health records to the VA prior to their separation 
from military service; and implementing the recovery care 
coordination program, highlighting the need to address 
caregiver issues to ensure that they receive support and 
information.
    The Disability Evaluation System was relatively unchanged 
from 1949 until 2007. As a result of Secretary-level attention, 
public concern and congressional interest, the Senior Oversight 
Committee chartered the DES pilot in November 2007. The SOC 
vision for this pilot was to create a service member-centric, 
seamless and transparent DES, administered jointly by the DOD 
and VA.
    The pilot transitioned to the Integrated Disability 
Evaluation System that integrates DOD and VA DES processes, so 
that the service member receives a single set of the physical 
disability evaluations and disability ratings, conducted and 
prepared by the Veterans Affairs office, with simultaneous 
processing by both departments to ensure the earliest possible 
delivery of disability benefits. Both departments use the VA 
protocols for disability examinations and the VA disability 
rating to make their respective determinations.
    The Department of Defense is partnering closely with the 
Department of Veterans Affairs as we aggressively move toward 
the full implementation of the IDES across all 139 continental 
United States and outside the continental United States by the 
end of this fiscal year. The IDES constitutes a major 
improvement over the legacy system and both DOD and VA are 
fully committed to the worldwide expansion of this program.
    The Department is, however, continuously exploring new ways 
to improve the current system. Because as long as one service 
member is in the system longer than perceived helpful, we are 
obligated and committed to do all we can to enhance the 
experience and make improvements. To that end, the Secretaries 
of Defense and Veterans Affairs have asked the teams to explore 
other options which could shorten the overall length of the 
disability evaluation process from its current goal of 295 
days.
    In addition, the Departments are also looking closely at 
the stages of the Disability Evaluation System that are outside 
the timeliness tolerances, and developing options to bring 
these stages within the goal. We are committed to do all we can 
within our areas of influence to enhance the experience and 
process and will be sure to keep the Congress informed of this 
progress along the way, and as new initiatives are identified 
that can further advance the efficiency and effectiveness of 
the disability evaluation process.
    Another highlight from the Senior Oversight Committee that 
drove to significant enhancement involves the attention to the 
caregiver.
    Mr. Chaffetz. Perhaps if we could submit the balance of 
that testimony, so that we have time to get to the full panel.
    Ms. Simpson. I will jump to the end of my last paragraph 
that summarizes what I have been trying to say to you this 
morning. Thank you.
    Mr. Chairman and subcommittee members, I cannot overstate 
how far DOD has come with our VA partners in the past 4 years, 
since the SOC and other governance processes were put in place. 
Our support for our wounded, ill and injured is night and day 
from the events that occurred at Walter Reed in 2007. Each of 
the services has stood up a very comprehensive and standalone 
warrior care program, as many of you are aware and have visited 
here and in your districts.
    Yet we still have much progress to make. As I close, I 
would like to be articulate, again, that one mistake, 
mistreatment, undue delay or any other aberration in the care 
or transition of our wounded, ill or injured service members is 
one too many. We will continue to work with our teammates at VA 
and throughout the interagency to do anything and everything we 
can to provide our service members with the absolute best care 
and treatment that they so rightfully deserve in return for 
their selfless service and sacrifice to our Nation.
    Thank you again for the opportunity.
    [The prepared statement of Ms. Simpson follows:]

    [GRAPHIC] [TIFF OMITTED] T8045.001
    
    [GRAPHIC] [TIFF OMITTED] T8045.002
    
    [GRAPHIC] [TIFF OMITTED] T8045.003
    
    [GRAPHIC] [TIFF OMITTED] T8045.004
    
    [GRAPHIC] [TIFF OMITTED] T8045.005
    
    [GRAPHIC] [TIFF OMITTED] T8045.006
    
    [GRAPHIC] [TIFF OMITTED] T8045.007
    
    [GRAPHIC] [TIFF OMITTED] T8045.008
    
    [GRAPHIC] [TIFF OMITTED] T8045.009
    
    [GRAPHIC] [TIFF OMITTED] T8045.010
    
    [GRAPHIC] [TIFF OMITTED] T8045.011
    
    [GRAPHIC] [TIFF OMITTED] T8045.012
    
    [GRAPHIC] [TIFF OMITTED] T8045.013
    
    [GRAPHIC] [TIFF OMITTED] T8045.014
    
    [GRAPHIC] [TIFF OMITTED] T8045.015
    
    [GRAPHIC] [TIFF OMITTED] T8045.016
    
    Mr. Chaffetz. Thank you.
    Mr. Medve, we will now recognize you for 5 minutes.

                    STATEMENT OF JOHN MEDVE

    Mr. Medve. Thank you, Mr. Chairman.
    Mr. Chairman, Ranking Member Cummings and members of the 
subcommittee, good morning and thank you for the opportunity to 
testify before you today.
    My name is John Medve, Executive Director of the Department 
of Veterans Affairs/Department of Defense Collaboration Service 
for VA's Office of Policy and Planning. I am pleased to be 
joined by the chief of staff from the Undersecretary of Defense 
Office of Personnel and Readiness, Lynn Simpson.
    I would like to provide the subcommittee with an overview 
of collaboration between the VA and DOD to ensure a seamless 
transition of our wounded, ill and injured service members from 
active duty to veteran status. I ask that my complete statement 
be included in the record.
    Much has been accomplished in the wake of the problems 
identified at the Walter Reed Army Medical Center in 2007 to 
improve the DOD disability process and the resulting transition 
to veteran status. The focus of my testimony is VA and DOD's 
joint efforts to make the improvements and to create an 
integrated disability process for service members who are being 
medically separated.
    Currently we are in the process of implementing the 
Integrated Disability Evaluation System, the process used to 
transition the wounded, ill and injured who are unfit for 
continued service from service member to veteran. In early 
2007, VA partnered with DOD to make changes to the DOD's 
existing DES. A modified process called VA/DOD DES pilot was 
launched in November 2007. The DES pilot was intended to 
simplify the disability process, increase the transparency, 
reduce the processing time and improve the consistency of the 
disability ratings among the services and between the services 
and VA. Authorization for the pilot was included in the 
National Defense Authorization Act of 2008, and further 
energized our efforts for improving DOD's DES process.
    The DES pilot model was launched originally at three 
operational sites in the National Capital region and recognized 
a significant improvement over the legacy process. The pilot 
model was subsequently expended in 2008 and 2009, ultimately 
covering 27 sites and 47 percent of the DES population when 
ended in March 2010.
    In July 2010, the co-chairs of the Senior Oversight 
Committee agreed to expand the pilot and rename it IDES. Senior 
leadership of VA, the services and the Joint Chiefs of Staff 
strongly supported this plan and the need to expand the 
benefits of this improved DES pilot model to all service 
members.
    VA and DOD are now working together to launch IDES 
enterprise-wide. As a result, in October 2010, we started the 
transition from the existing legacy process to IDES using the 
pilot model process. Currently, there are 77 IDES sites 
operational nationwide, which includes the original 27, 
covering 72 percent of the DES population. When fully 
implemented in October 2011, there will be a total of 139 
sites.
    Through the implementation of IDES, the departments hope to 
create a more transparent, consistent and expedient disability 
evaluation process. We believe that through the implementation 
of the DES pilot, we have largely achieved that goal. To 
explain, in contrast to the DES legacy process, the pilot model 
provides a single disability examination and a single source 
disability rating that are used by both departments in 
executing their respective responsibility.
    This results in more consistent evaluations, faster 
decisions and timely benefit delivery for those medically 
retired or separated. As a result, VA benefits can be delivered 
in the shortest period allowed by law following discharge, thus 
eliminating the pay gap that previously existed under the 
legacy process.
    The DOD/VA integrated approach has also eliminated much of 
the sequential and duplicative processes found in the legacy 
system. Overall processing time for the delivery of DOD 
disability benefits will be reduced from an average of 540 days 
to a goal of 295 days while simultaneously shortening the 
period until the delivery of VA disability benefits after 
separation from an average of 166 days to approximately 30 
days.
    Through the challenges and lessons learned, DOD recognized 
that we expanded outside the NCR, we did not have a robust 
business processes in place to certify each site's preparedness 
before it became operational. Through analysis of lessons 
learned and by working with Congress, we have developed initial 
operating capability readiness criteria that stress quality 
over expedience to ensure that future sites are operationally 
ready for IDES.
    Mr. Chairman, I will cut short the rest of my statement in 
the interest of time and thank you again for your support of 
our wounded, ill and injured service members, veterans and 
their families, and the opportunity to appear before you today.
    [The prepared statement of Mr. Medve follows:]

    [GRAPHIC] [TIFF OMITTED] T8045.017
    
    [GRAPHIC] [TIFF OMITTED] T8045.018
    
    [GRAPHIC] [TIFF OMITTED] T8045.019
    
    [GRAPHIC] [TIFF OMITTED] T8045.020
    
    [GRAPHIC] [TIFF OMITTED] T8045.021
    
    [GRAPHIC] [TIFF OMITTED] T8045.022
    
    [GRAPHIC] [TIFF OMITTED] T8045.023
    
    [GRAPHIC] [TIFF OMITTED] T8045.024
    
    [GRAPHIC] [TIFF OMITTED] T8045.025
    
    [GRAPHIC] [TIFF OMITTED] T8045.026
    
    [GRAPHIC] [TIFF OMITTED] T8045.027
    
    [GRAPHIC] [TIFF OMITTED] T8045.028
    
    [GRAPHIC] [TIFF OMITTED] T8045.029
    
    [GRAPHIC] [TIFF OMITTED] T8045.030
    
    Mr. Chaffetz. Thank you.
    It is my understanding that Mr. Bertoni is going to make 
the opening statement for the GAO. You are recognized for 5 
minutes.

                  STATEMENT OF DANIEL BERTONI

    Mr. Bertoni. Mr. Chairman, Ranking Member Cummings, members 
of the subcommittee, good morning.
    I am pleased to discuss the Departments of Defense and 
Veterans Affairs' efforts to integrate their disability 
evaluation systems. I am joined today by Randy Williamson of 
our health care team, who can address any questions you may 
have regarding VA's Federal recovery coordination program, and 
Mark Bird, of our information technology team, who can field 
any questions on systems integration and data sharing between 
the departments.
    Mr. Chairman, thousands of service members have been 
wounded or injured in Iraq and Afghanistan, and many who can't 
continue their military service must navigate complex 
disability evaluation systems in both DOD and VA. GAO and 
others have identified problems with these systems, including 
delayed decisions, duplicative processes and confusion among 
service members.
    In 2007, DOD and VA piloted an Integrated Disability 
Evaluation System [IDES], to streamline and expedite the 
delivery of VA benefits to service members. My statement today 
summarizes and updates key findings of our December 2010 
report, which examined the agencies' evaluation of pilot 
results, key implementation challenges and efforts to mitigate 
those challenges in advance of a planned worldwide roll-out.
    In summary, in their evaluation the departments noted that 
the pilot had improved service member satisfaction relative to 
the legacy system. It met their goal for delivering VA benefits 
to active duty and reserve members within 295 and 305 days, 
respectively. Despite meeting the overall timeliness goal, not 
all service branches achieved the same results. Only the Army, 
with about 60 percent of all cases, met the established goals, 
while average processing times for the other services were 
substantially higher.
    Moreover, as caseloads have increased, processing times 
have also steadily worsened. And as of March 2010, active duty 
cases took an average of 394 days to complete.
    The departments have also had difficulty meeting their goal 
for their percentage of cases processed on time, and have since 
adjusted that goal downward from 80 percent to 50 percent. Over 
the past 6 months, the data shows that this new, lower goal has 
never been met for active duty cases, and only rarely for 
reserve and National Guard cases.
    DOD and VA encountered several implementation challenges 
with the pilot that contributed to delays. Nearly all the sites 
we visited experienced staffing shortages to some degree, often 
due to workloads exceeding original projections. Shortages and 
delays were most severe at sites that had large caseload surges 
related to deployments. At one location, it took over 140 days 
to complete a single medical exam, well in excess of the 45 day 
goal.
    We identified other issues and delays associated with this 
single exam, such as problems with completeness and clarity of 
exam summaries and disagreements between DOD and VA medical 
staff on some diagnoses. Pilot sites also experienced 
logistical challenges such as incorporating VA staff into 
military facilities and housing service members awaiting a 
decision.
    As DOD and VA proceed with rapid expansion worldwide, they 
are taking steps to address several challenges. This includes 
increasing exam and case management personnel, VA additional 
hiring, staff relocations and contracting, requiring more 
thorough assessments of site readiness and contingency plans 
for addressing caseload surges, and making changes to improve 
the quality of exam summaries.
    While these initiatives are promising, we have recommended 
that DOD and VA take steps to ensure sites have enough military 
physicians to handle projected workloads, as well as available 
housing and operational capacity to absorb service members. It 
is also critical that the departments proactively assess and 
mitigate delays associated with diagnostic differences and 
insufficient exam summaries, and going forward, develop a 
robust data collection and monitoring mechanism to identify and 
address local level challenges, such as sudden staffing 
shortages.
    In conclusion, the IDES shows promise for expediting the 
delivery of VA benefits to service members. However, we have 
identified significant challenges that require our careful 
attention. Although steps taken to date may mitigate these 
challenges, the current deployment schedule remains ambitious, 
in light of substantial unresolved issues and evidence of 
steadily worsening processing times. Thus it is unclear whether 
actions taken will sufficiently and timely support worldwide 
implementation.
    Time frames aside, the ultimate success or failure of IDES 
will depend on DOD's and VA's ability to quickly and 
effectively address resource needs, make adjustments and 
resolve challenges as they arise, not only at initiation, but 
on an ongoing basis.
    Mr. Chairman, this concludes my statement. I am happy to 
answer any questions that you or other members of the 
subcommittee may have. Thank you.
    [The prepared statement of Mr. Bertoni follows:]

    [GRAPHIC] [TIFF OMITTED] T8045.031
    
    [GRAPHIC] [TIFF OMITTED] T8045.032
    
    [GRAPHIC] [TIFF OMITTED] T8045.033
    
    [GRAPHIC] [TIFF OMITTED] T8045.034
    
    [GRAPHIC] [TIFF OMITTED] T8045.035
    
    [GRAPHIC] [TIFF OMITTED] T8045.036
    
    [GRAPHIC] [TIFF OMITTED] T8045.037
    
    [GRAPHIC] [TIFF OMITTED] T8045.038
    
    [GRAPHIC] [TIFF OMITTED] T8045.039
    
    [GRAPHIC] [TIFF OMITTED] T8045.040
    
    [GRAPHIC] [TIFF OMITTED] T8045.041
    
    [GRAPHIC] [TIFF OMITTED] T8045.042
    
    [GRAPHIC] [TIFF OMITTED] T8045.043
    
    [GRAPHIC] [TIFF OMITTED] T8045.044
    
    [GRAPHIC] [TIFF OMITTED] T8045.045
    
    [GRAPHIC] [TIFF OMITTED] T8045.046
    
    [GRAPHIC] [TIFF OMITTED] T8045.047
    
    Mr. Chaffetz. Thank you. I appreciate that.
    I am going to recognize myself for 5 minutes. Ms. Simpson, 
Mr. Medve, I appreciate the task that you have before you. When 
I hear, see and read what the GAO has to say and I listen to 
your statements and presentations, it seems like you are on a 
different planet. That is the concern.
    Let me ask specifically, because I hope at the conclusion 
of this we have at least some sense of the timing, the 
realistic timing, the cost of this, I haven't heard much 
mention of what this is all costing, and some explanation of 
why it is taking so long. Because we talked about May 3, 2007, 
virtually about 4 years almost to the date, and yet we feel 
like we are still sliding backward as opposed to forward.
    Can veterans now download their electronic medical records 
with the click of a mouse? Yes or no, Ms. Simpson?
    Ms. Simpson. Yes, they can, both with the VA and from 
TriCare Health Agency.
    Mr. Chaffetz. Mr. Medve, can they do that?
    Mr. Medve. They can do it through the Blue Button system, 
Mr. Chairman. They can download information from the medical 
records into Blue Button.
    Mr. Chaffetz. Can we get the assessment from the GAO? Is 
that something that they can do, click on the mouse and 
download their records?
    Mr. Bird. Yes, they can, but the information that is 
available to them may be limited.
    Mr. Chaffetz. Explain that to me.
    Mr. Bird. Well, there are, not all medical records are 
necessarily in electronic form.
    Mr. Chaffetz. So my understanding is that what is in 
electronic form is what they self-import, right? What they 
themselves put into the system? Or is it broader than that?
    Mr. Bird. No, it is broader.
    Mr. Chaffetz. But is it complete?
    Mr. Bird. It may not be complete.
    Mr. Chaffetz. How do they figure out if it is complete or 
not? That is one of the issues, right? The President made this 
quote during the State of the Union: ``Veterans can now 
download their electronic medical records with the click of a 
mouse.'' But then right after that, we had the Iraq and 
Afghanistan Veterans of America president comment that was not 
true. And he said, ``The President's comments are misleading to 
service members, veterans and the American public who now think 
that this system is in place and functional, while it is 
clearly not.''
    Is he right or is he not right? Mr. Bird.
    Mr. Bird. As I said, there is information that is readily 
available at the click of a button. But the information for all 
veterans in all cases may not be complete.
    Mr. Chaffetz. Do you have any sense of how do we get to 
that finish line? How much of it is in there? What percentage 
of this is actually done? And how do we get to that finish 
line? It is a huge, mammoth task, no doubt about it.
    Mr. Bird. Yes. The Departments frankly have been working on 
this, the exchange, the electronic exchange of health records, 
for over 10 years. They have slowly been increasing the extent 
to which they can exchange records, starting back in 1998, to 
the present time.
    There are in some cases limitations in the systems within 
the Departments that preclude the full exchange of medical 
records for any individual.
    Mr. Chaffetz. How close are they to completing this? Is it 
next month? Is it next year? If there is a spectrum, and we are 
trying to get to the finish line, and I recognize it is an 
ongoing process, but information technology is supposed to make 
life simpler, easier, swifter, more effective, more efficient, 
not more burdensome. Where are we on that spectrum?
    Mr. Bird. Well, it is difficult to say, because the extent 
of the problem hasn't necessarily been defined yet by the 
Departments. The desired end state is frequently moving as 
technology improves, and as certain capabilities are delivered, 
people want more.
    Mr. Chaffetz. Would anybody else from the GAO care to 
comment on that?
    Mr. Bertoni. I could talk more on that from a logistics and 
operational standpoint with the IDES. The larger macro issue of 
data sharing between DOD and VA affects not only, primarily 
folks who have left the services and are in the world and need 
to get their records and it is very difficult. In terms of the 
IDES, that is pretty much a self-contained unit. You have VA 
staff, you have DOD staff in these medical treatment 
facilities. And the problem they have is their individual 
systems haven't been integrated sufficiently onsite.
    So we have work-arounds, we have manual processes, we have 
multiple computers on individuals' desks to sort of access 
multiple sites. But in the case of this project, would it 
expedite if they had a seamless access to each others' records? 
Yes. Would it facilitate quicker processing? Absolutely. Is it 
the Achilles heel for this system? No. I think there are bigger 
issues.
    Mr. Chaffetz. And what are those bigger issues?
    Mr. Bertoni. Initially I think not staffing these sites 
appropriately, not maintaining the ratios of staff to 
workloads, to cases. Just not having the appropriate knowledge, 
skills and ability on the ground when these sites were stood 
up. Primary.
    Mr. Chaffetz. There is lots more to discuss, but I am 
coming to the conclusion of my time with respect to the 5-
minutes. We will now recognize Mr. Welch from Vermont for 5 
minutes.
    Mr. Welch. Thank you, Mr. Chairman. I appreciate your 
calling this hearing.
    Mr. Williamson, I want to thank you for conducting the GAO 
study, which I and others had requested after that Washington 
Post series of articles. I missed your opening statement, so I 
apologize if you have to re-cover answers that you have already 
given. But can you please share how the findings of that study 
can help this committee on how we can move forward in making 
the transition from DOD to the VA more streamlined for our 
soldiers?
    Mr. Williamson. The study we completed on March 23rd was on 
the Federal Recovery Coordination Program. And as you may know, 
that is a program for the most severely catastrophically 
injured, ill and wounded service members. In the process of 
that, we have obviously looked at a variety of other programs.
    As you know, each of the services has their own wounded 
warrior program. And in addition to the Federal Recovery 
Coordination program, which is administered by VA, there is a 
recovery coordination program administered by DOD as well. So 
there are a lot of organizations that are involved in terms of 
care coordination and case management.
    Some of the IT issues in terms of coordination, just to 
kind of follow on what the chairman was talking about, it is 
very important, because of the overlap that occurs between all 
the programs, the wounded warrior programs that are now 
ongoing, very important that these programs coordinate with one 
another. Right now, the recovery coordination program has a 
comprehensive transition plan and the FRP also has that.
    So it is important that if they are not talking to one 
another, or can't communicate with one another, they have 
problems. We had a situation where----
    Mr. Welch. I am not going to have a lot of time. What I 
think would be helpful is, on the basis of your study, what are 
the one, two, three types of recommendations that you might 
have?
    Mr. Williamson. The recommendations deal with proper 
identification of potential enrollees. Right now they need to 
do a better job of identifying the people who are severely 
wounded. And that is an issue because there is no good data 
base of severely wounded people.
    No. 2, determining a number of staff and the workload 
ratio, so that we don't overload. And three, where to place the 
people.
    Mr. Welch. All right, thank you.
    Let me ask Ms. Simpson and Mr. Medve a question. When the 
Vermont Guard returned, we had our largest Guard deployment 
since the Second World War, over 200 were kept on medical hold 
with the DOD and not able to return home to their family to 
begin that reintegration process. The question is, how can 
members of the National Guard and Reserve have access to the 
high quality care that is provided by the Department of Defense 
without losing the opportunity to get the benefits of receiving 
that care closer to home? That is particularly a challenge for 
our members of the Guard who are, many of them, living in very 
rural and remote areas. I will start with you, Ms. Simpson.
    Ms. Simpson. Thank you, Mr. Welch. I think the issues that 
you highlighted for the Guard are of upmost priority to both 
Departments. Because of the unique nature of the Guard being 
part of a community, it is more difficult to get services to 
them.
    However, that being said, there has been an increased 
emphasis to ensure that they not only have the benefits and 
care from these transition units, but also making an outreach 
to the community. The Army in particular has done a good job 
trying to reach back to the communities on behalf of the Guard 
and Reserve community.
    There is more to be done, obviously, because that Guard and 
Reserve community is one of our highest priorities, as some of 
their statistics are not as good as some of the others. So we 
are working on that exact issue.
    Mr. Welch. Thank you. Mr. Medve.
    Mr. Medve. Congressman, thank you for the question. As Ms. 
Simpson said, we are looking at the specific issues surrounding 
Guard and Reserve. When they return from a deployment, DOD has 
been, as we look at somebody that may be unfit, we are working 
through those specific issues of getting them through the IDES 
program and looking for ways that we can do this treatment much 
closer to the home base to ensure that we have the requisite 
staff that can handle that influx.
    Mr. Welch. Thank you. I yield back.
    Mr. Chaffetz. The gentleman yields back. Thank you.
    We will now recognize the vice chairman, Mr. Labrador from 
Idaho, for 5 minutes.
    Mr. Labrador. Thank you, Mr. Chairman.
    Mr. Bird, I just want to followup on a question that the 
chairman asked you. I am not sure I understood your answer. In 
the State of the Union, President Obama stated that veterans 
can now download their electronic medical records with the 
click of a mouse. And you said that is somewhat true.
    But you were not specific enough, letting us know exactly 
what they can download. I am just going to quote the president 
of the Iraq and Afghanistan Veterans of America. He said that 
``The comments are misleading to service members, veterans and 
members of the American public who now think that the system is 
in place and functional. This is clearly not.'' Then he says 
specifically that from the VA system what you can download are 
pharmaceutical records and personal health information that he 
or she has self-entered.
    Is that an accurate statement?
    Mr. Bird. I believe that is an accurate statement.
    Mr. Labrador. So that is all you can download right now, is 
pharmaceutical records and then self-input information?
    Mr. Bird. That is my understanding.
    Mr. Labrador. So what do you think the President meant when 
he said that veterans can now download all this information?
    Mr. Bird. I wouldn't want to speculate.
    Mr. Labrador. Anybody else want to take a crack at that?
    OK. Ms. Simpson, could you please comment on that?
    Ms. Simpson. I was just going to say that I think the Blue 
Button, as Mr. Medve mentioned, is a reference to trying to get 
to that goal that you are talking about, the full electronic 
health record, and that has made significant progress. I am not 
technically detailed in the exact information that the member 
can get, though. But the Blue Button, as Mr. Medve said, is the 
way that they get the information.
    Mr. Labrador. So we are trying to achieve this compliance, 
where they can actually download. But it sounds like we are not 
really there yet.
    Now, we have a system, the IDES system, and we also have 
the legacy DES system. Ms. Simpson, can you tell me what was 
the projected cost of the legacy DES program?
    Ms. Simpson. I don't have that figure for the cost, but we 
can get that for you.
    Mr. Labrador. OK. I want to know what the projected cost 
was, and I want to know what the actual cost was. Do you, Mr. 
Medve, have that information?
    Mr. Medve. Sir, DES is a DOD program, so I wouldn't have 
that information on IDES in terms of our projections for health 
care with VHA and VA. Those are embedded in their overall 
budget, because frankly, service members who transition through 
IDES would be our customers anyway. So we project for that 
population.
    Mr. Labrador. Can you provide that information for the 
record?
    Mr. Bertoni. Sir, I actually have, as of November I have 
some numbers.
    Mr. Labrador. That would be great.
    Mr. Bertoni. DOD estimates $63 million annually for the 
IDES, with VBA's portion about $33 million and VHA at $17 
million. And additional benefits paid out would be $960 
million.
    Mr. Labrador. What was the projected cost?
    Mr. Bertoni. I do not know the projected, just what their 
estimates were at that time.
    Mr. Labrador. Thank you.
    According to your testimony, Mr. Medve, you said that 
through the implementation of IDES, the Departments hope to 
create a more transparent, consistent, expeditious program. And 
you believe that it will largely achieve the goal of creating a 
more transparent, consistent program. Why do you think that is, 
just largely? Do you think that it is going to achieve these 
goals, or do you think that it is not going to achieve the 
goals?
    Mr. Medve. I believe it will achieve the goals. In many 
cases, we have, with service members.
    Mr. Labrador. Does GAO agree with this assessment, Mr. 
Bertoni?
    Mr. Bertoni. I think the concept of transparency is built 
into it. We have a system unlike the legacy system, where we 
have case management, clinical, non-clinical case management 
from referral through payment of VA benefits. So to the extent 
that these folks are able to do their job, they have sufficient 
workloads and ratios where they can actually speak with the 
service member and explain to them why things are happening the 
way they are, why the decisions are playing out the way they 
are. I think you do have a much more transparent system.
    Mr. Labrador. Mr. Chairman, I have no more questions, just 
one last comment. It seems to me that we have had this problem 
for 4 years, trying to figure out how the system works. This is 
a lot of the same stuff we are going to be doing with the 
health care system, if it goes national. So I have some 
concerns about the projected costs in the future for a health 
care system.
    Mr. Chaffetz. Thank you. The gentleman yields back.
    I now recognize the ranking member of the committee, Mr. 
Tierney from Massachusetts, for 5 minutes.
    Mr. Tierney. I thank the chairman. I thank the chairman for 
having this hearing, as well, as the folks on the dais for 
testifying.
    Mr. Bertoni or Mr. Williamson, Mr. Bird, let me ask you 
folks one thing. Is it your impression that the Veterans 
Administration and the Department of Defense completed all the 
recommendations that you made with respect to their pilot 
program?
    Mr. Bertoni. We have made recommendations dating back to 
2007. To the extent that we have asked them to institute more 
robust assessment practices while they were going through the 
pilot, we think they have been fairly responsive. I would say 
responsive. I think the design of the pilot was better, the 
metrics they were capturing were better because they were 
responsive to our recommendations.
    Down the road, we just issued a report in December where we 
have several recommendations in which they have agreed. To the 
extent that they complete them, I think they will have a 
positive impact.
    Mr. Tierney. Do you have an estimate of how long it should 
take them to complete the recommendations from December?
    Mr. Bertoni. There are some estimates. We had asked them to 
look at the extent to which there are disagreements and 
diagnoses between DOD and VA, which we believe could be 
substantial. I have been doing this quite a while, and usually 
Federal disability programs, cases tend to get mired in the mud 
when you can't complete the medical record or you have 
disagreements about the medical record. They sit on desks, they 
have to be looked at again. Medical exams expire and we see the 
service member on the disability evaluation hamster wheel.
    So we think they really need to look at this issue. I 
believe they intend to study it and make a determination of 
whether adjustments need to be made by July 2011. And there are 
other areas where they are actively right now making 
adjustments.
    Mr. Tierney. To what extent, if any, do you think that this 
disagreement, or maybe substantial disagreements on disability, 
would be a case of hoping that the other department or agency 
incurs the cost?
    Mr. Bertoni. I don't think that is the issue. I think it 
just, it is the way their criteria is laid out in terms of how 
they assess disability. Terminology, nomenclature, guidance, I 
think there are just fundamental differences across the two 
entities. And things get lost in the translation.
    Right now, there is guidance being developed. We haven't 
seen it, and we really don't know how it is going to address 
this problem. What we are really concerned about is, we went to 
10 sites. We heard this at enough sites to raise it to the 
attention of the agencies, that you really need to get your 
hand around extent, nature and the impact on delays. That is 
good information to make some adjustments.
    Mr. Tierney. Mr. Medve and Ms. Simpson, is there any talk 
in the Veterans Administration or Department of Defense about 
kicking this up to the White House level to get a referee? 
Somebody has to be able to make a decision, as opposed to 
letting it keep being arbitrated and negotiated back and forth. 
At some point, somebody has to have some leadership, a sense of 
direction, make a decision and force movement.
    Mr. Medve. Mr. Ranking Member, as Mr. Bertoni said, one of 
the recommendations was for us to look at those discrepancies. 
As he said, we are undergoing a study right now which will be 
coming out in July. We are also looking at a number of variety 
of ways, because as he points out, most of the cases that there 
is a discrepancy, it resolves around the mental health issues. 
Those are tough calls to make in terms of service members. So 
while the DOD doctors will have had a service member for a 
while and have an opinion, and then when we do the exam, we may 
come to a different conclusion.
    So we are working out a way that we can leverage the 
ongoing treatment, get that in a form where our raters can look 
at that, and then use that as the basis for making the 
determination which should help eliminate any discrepancies.
    Mr. Tierney. Had nobody identified that issue between the 
time that you were working on the pilot and the time you 
decided to start trying to scale this program up? It sounds to 
me like there was no plan on how the scaling up was going to 
happen.
    Mr. Medve. I can't answer that question. I wasn't there 
during the pilot phase of it. I know a number of these issues, 
we are dealing with individual cases. So as you are dealing 
with individual service members----
    Mr. Tierney. I don't want to interrupt you, but my time is 
short. I know we are dealing with individual cases, and I am 
aware of all the difficulties that presents. But when we had a 
pilot program, presumably we identified some of the issues 
there. Before we went to moving to scaling it up, I would have 
thought there would have been a plan, and the plan would have 
involved resolving some of these issues.
    Mr. Bertoni, are you aware of any plan where they said, 
these are the issues, we are going to get these resolve and 
this is how we are going to deal with it as we scale it up?
    Mr. Bertoni. Certainly the pilot identified challenges that 
the DOD and VA have undertaken efforts to address. I think one 
of the issues was at the time they issued that report in August 
2010 that there were only 1,300 completed cases. They were 
working off of data that was 6 months old at the time they 
began analyzing it.
    So I think some of the emerging issues just hadn't worked 
their way through the system yet. By the time we started to 
look, a year later, at some of the data, some of these trends 
were starting to play themselves out more fully. So making 
decisions on the basis of 1,300 cases on the goodness of the 
pilot, they were able to do that in some respects. But I don't 
think they knew everything that was going to be coming down the 
road.
    Mr. Tierney. Thank you.
    Mr. Chaffetz. Thank you. We will now recognize Mr. Gosar of 
Arizona for 5 minutes.
    Mr. Gosar. Mr. Williamson, let me make sure I've got this 
right. You made a comment just a minute ago, because of lack of 
documentation of the injured. Are you kidding me? Is that true?
    Mr. Williamson. Well, again, the Federal Recovery 
Coordination program covers the severely injured. And there is 
no data base in DOD or VA that actually defines what severely 
wounded is, or keeps track of it. So it makes it difficult for 
the program to identify potential enrollees.
    Mr. Gosar. Well, this seems just backward to me. I am a 
dentist, and health records are everything to a patient for 
continuity of care. And I see this over and over in my 
district. We collect claims from White Mountains to Native 
Americans to Flagstaff to Prescott to Phoenix all about this. 
And this is the simplest of tasks. And it comes back to the 
lack of an interagency discipline to have something that both 
agencies can agree upon. Would you not agree on that, Ms. 
Simpson and Mr. Medve?
    Ms. Simpson. I think absolutely it requires both 
departments working together, throughout the entire department 
at the senior levels of leadership to address those specific 
issues. I believe that the teams are working to address those.
    Mr. Gosar. Wasn't there a meeting on May 2nd? What was the 
followup on that? Can you give us some details?
    Ms. Simpson. I was not present at the meeting. We are in 
the process of documenting the next steps for both the issues 
of the electronic health record and the disability evaluation 
system and the way forward. Both departments will be connecting 
on that to get specifics in addressing those issues.
    Mr. Gosar. I find a real disconnect, I am sorry, but these 
are people's lives. Having gone over to Walter Reed to see the 
severely injured, to see even some of the folks who are looking 
at problems with post-traumatic syndrome type aspects, folks, 
it is that easy.
    It seems like we are just studying this over and over and 
over again, going nowhere. It is a common theme throughout our 
whole, my district, which is laden with veterans and our 
military supporters. This is unacceptable. Just absolutely 
unacceptable. Because the whole system is now in place and it 
is a problem, it is interfering with the treatment of our 
soldiers. Would you not agree?
    Ms. Simpson. Access to data and information absolutely is 
critical to being able to address issues, I agree.
    Mr. Gosar. Then why aren't we prioritizing that record? 
This is no different. I am not going to give you any solace. 
Because in the private sector, we are not given that leeway. 
And I don't see we should be giving you any more leeway because 
of what is impounding here. And not to have documentation on 
severely wounded people that are coming back here, that is the 
minimum standard, folks. That is a minimum standard. What you 
are giving us is unacceptable results, absolutely unacceptable 
results.
    Not knowing what came about on May 2nd, Ms. Simpson, where 
would you go with this? You are in a position of making a 
comment and putting your weight behind an idea. Where would you 
like to see this go?
    Ms. Simpson. I believe we would like to see it go to 
exactly what you are talking about, commitment and service to 
getting our service members and our wounded warriors into 
veteran status seamlessly. It has to be the upmost priority. 
And the technical aspects of the systems, I am not detailed in 
that type of information, but there are very dedicated people 
in both departments that are working tirelessly to make sure 
that the technical, systematic architecture and the details 
about the infrastructure that is required to support the record 
you are referring to is going to be a reality.
    Mr. Gosar. I would hope somebody in leadership would 
actually stand up and be counted. Because too many times our 
men and women who put their lives on the line are being the 
victims here. That is inappropriate.
    We have heard this over and over again, throughout my 
district, like I said. I would like to say, in a few short 
weeks, we are going to celebrate Memorial Day. I hope, 
especially, it is very important during this time, that we 
remember our obligations. It is not about saving our jobs, it 
is not about not speaking up. It is about speaking up on behalf 
of what is right. I don't see a lot of that happening.
    Thank you, Mr. Chairman.
    Mr. Chaffetz. Thank you. The gentleman yields back.
    We will now recognize Mr. Quigley from Illinois for 5 
minutes.
    Mr. Quigley. Thank you, Mr. Chairman.
    Ms. Simpson, I will ask you but if anyone else wants to 
chime in, I would appreciate it. Isn't it true that the 
problems at Fort Carson is really a staffing problem? Are you 
concerned that this is not just Fort Carson, but these systemic 
shortages could lead to these same delays across the entire 
system?
    Ms. Simpson. I think an element of the issues at Fort 
Carson was the staffing issue. One of the actual lessons 
learned from the pilot, the first pilot, was in fact having 
accountability and a thorough assessment of making sure that 
all aspects of the requirements to integrate the systems was in 
place before going live. So the teams now are going around to 
the different sites and looking at best practices. Not every 
site has the severity of the issues as identified in Fort 
Carson.
    But to address that, we are looking at the other sites to 
incorporate the lessons learned there, and getting more 
specific in the metrics, they are consistent across all the 
sites.
    Mr. Quigley. Then how much of it is the staffing issue 
there, and what is the danger of it spreading? How do you break 
it down? Is it the analysis you are doing now to try to answer 
that question?
    Mr. Medve. If you don't mind, Congressman, one of the 
things that we learned in terms of as we move forward with IDES 
is we had not instituted a process that brought together the 
teams before they stood up in their respective sites and 
applied a rigorous methodology of making sure they understood 
what they were getting into as they were going to implement.
    We started that back in September with the first iteration 
where we brought them all together. We sat them as groups. We 
had them do a site assessment and then from that site 
assessment it went through a murder board where people looked 
at their analysis and after that analysis, they developed their 
draft implementation plan.
    So they got a good sense of where they were from a 
requirements standpoint, in terms of what they needed for 
staffing. And then developed their plan and had to be certified 
by two senior executives, one from DOD, one from VA, for each 
local site. That again I think is building on the 
recommendations that the GAO made.
    As part of that they also had to develop contingency plans, 
should there be an influx of how they would handle additional 
cases coming into the system. So I think what happened at Fort 
Carson, we did learn that lesson, we have embedded it and 
institutionalized it in our going-forward plan for rolling it 
out for the rest of the fiscal year.
    Mr. Quigley. I can't help, Mr. Chairman, my frustration 
here is I am flashing back to my academic days in public 
policy. I feel like I am getting an answer that would be 
suitable for a public administration class. In layman's terms, 
the essence of the problem, how much of it is staffing, how 
much of it is we just screwed up and didn't know how to do this 
the right way?
    Mr. Medve. Sir, I think at the beginning we didn't have as 
good a plan as we needed. We did not apply the leadership from 
the local level up. And we have now turned that around to where 
the Chief of Staff of the Department of Veterans Affairs and 
the Vice Chief of Staff of the Army have quarterly VTCs with 
the Army IDES sites to hold each site and both Department 
personnel accountable for that. We are examining the staffing 
as part of that process. And if there is a requirement to add 
more staff, we are doing it.
    Mr. Quigley. I respect how difficult this is. I really do. 
I guess I don't understand how it can crop up. It sounds like 
the first day on the job. Doing this for a long time, what 
changed to make it all of a sudden a problem that you had to 
uncover?
    Mr. Bertoni. Sir, I could take a crack at that from a GAO 
standpoint. I think, as Mr. Medve stated, the up-front work in 
terms of doing a look-back on the history of Carson would have 
been very helpful, a more granular look, a month by month look 
at what the deployment schedules looked like, what did the 
impairments look like, numbers, types of impairments, 
illnesses, injuries. Then you can build your knowledge, skills 
and abilities around that.
    In the case of Carson, there was a large shortage in 
specialty medical exams. Many of these folks are coming back 
from multiple deployments. The science says when you go through 
multiple deployments, more likely to have PTSD and other mental 
impairments to deal with.
    So if you know the history of the site, you can build your 
staffing model around that and be ready for surges. That was 
not done. We think it is being done better now.
    Mr. Quigley. Is it possible to continue? Thank you, Mr. 
Chairman. Then it gets to the question, if this is new, is it 
because we are in uncharted territory about how many 
deployments we are sending our young men and women to? Anybody?
    Ms. Simpson. The deployments piece is not new. I think the 
new----
    Mr. Quigley. The deployment what?
    Ms. Simpson. The deployment assessments is not new.
    Mr. Quigley. But what is new is how many deployments we are 
asking our people to go on, to go through.
    Ms. Simpson. I think what we are trying to say, or at least 
Mr. Medve and I are trying to say, is the issues that were not 
addressed in the first look at the pilot were categorized into 
a plan. And now they have constant interaction and talking with 
one another through these various forums that Mr. Medve 
mentioned. And the constant attention to making sure that all 
of the staffing, the facilities, all of the things that are 
required to make sure that the site is able to function at the 
upmost quality is there.
    Mr. Quigley. Mr. Chairman, I want to thank our 
participants. With the greatest respect, I am not any smarter--
maybe that is an attack on me--after this discussion than I was 
coming in and reading this and being prepared. But I do 
appreciate what you have done to put this together.
    Mr. Chaffetz. Thank you. The gentleman yields back.
    We will now recognize the gentleman from Texas, Mr. 
Farenthold, for 5 minutes.
    Mr. Farenthold. Thank you very much.
    I never cease to be amazed at the inability of the Federal 
Government to create what seems to me to be a relatively simple 
computer system that works. I am stunned by it.
    I want to take a step back and just kind of look at what is 
actually involved in doing this. We had a comment, I think it 
was Mr. Medve, that we had some staffing issues. Are the 
staffing issues doctors? Are the staffing issues data input 
clerks? Where is the staffing problem? That is my first 
question.
    Mr. Medve. In terms of IDES, what we needed to understand 
was what the requirement was at each site, based on their 
specific requirements. So it was a combination of ensuring that 
we had the amount of medical professionals who could do the 
examinations, that we had the requisite number of VA military 
service coordinators to handle the cases. And then 
correspondingly, the DOD had the number of physical evaluation 
board liaison officers.
    Mr. Farenthold. OK. Well, here is my concern on this. I 
actually have a little bit of experience in this. I had a 
computer company before I came to Congress. We were approached 
by a chain of five minor emergency centers that wanted to do an 
electronic medical records system, online and Web-based. We did 
that with five people in 4 months.
    Now, I realize you have a whole lot bigger scale. But it 
doesn't seem like it is a whole lot different project, with 
maybe the addition of some workflows. You have a doctor in the 
military that sees them. They dictate the report, or they enter 
it into the computer themselves.
    Then they move on, get discharged, they move on to the 
Veterans Administration. They get evaluated by another doctor, 
who dictates or enters that report. It gets reviewed by 
somebody that says yes or no, and the checks start coming.
    I realize that is a gross oversimplification. But it seems 
to me that is a pretty simple data base application with some 
workflow. I would bet if you put it just in simple terms and 
gave it to a student at Harvard, he could probably get it done 
in the evening. We got Facebook up in no time, a kid in his 
spare time.
    Am I missing something here? Can anybody tell me how it is 
that much more complicated than that?
    Mr. Bertoni. In the case of the IDES, what we found was it 
was a people issue. At each stage of the process, there is a 
workload. And let's just talk about ratings. To the extent that 
there aren't enough raters in play, that workload is going to 
back up. Medical exams, to the extent that there aren't enough 
medical examiners to handle the workload, and if we get a surge 
from a deployment on top of that, that work is going to back 
up. Yes, computers and automation can help leverage limited 
resources. But it has to be hand in hand with appropriate 
workload ratios.
    Mr. Farenthold. I understand that. But it seems like these 
are men and women that have put their lives on the line for our 
country. There is no way they are going to get discharged from 
the military before they see a doctor. That doctor ought to be 
able to make an initial assessment, and you all ought to trust 
your brother agency that is a good initial assessment, so they 
can get the money that they deserve to take care of their 
family as soon as they get out. Then you all can take as long 
as you want to do the second evaluation and say no. We have 
created too many steps and too much red tape to get that done.
    Would you guys just do me a favor? When you finish, just 
stand out in the hall and work out the 10 steps that it takes 
to get this done and see how we can implement it. Forget the 
red tape, forget the standard, just do a block diagram on the 
back of a napkin and then hand it to some kid at Harvard and 
let him write it. It is simple, basic, undergrad computer 
science to get the technology to work. And I think you need to 
give your brother and sister agencies the benefit of the doubt.
    I apologize for preaching more than I asked questions, but 
I am just appalled at the amount of time and the disservice we 
are doing to the men and women who have sacrificed life and 
limb for this country.
    Thank you very much. I yield back.
    Mr. Chaffetz. Thank you. The gentleman yields back.
    We will now recognize the ranking member of the full 
committee, Mr. Cummings of Maryland for 5 minutes.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Let me go back to what I said in my opening statement. Mr. 
Tierney, I complimented you for back in 2007 grabbing hold of 
this issue. I was telling them about how we were at Walter Reed 
and what we saw back then. We have seen some improvement.
    But one of the things I am most concerned about is I think 
that we may be accepting a normal that is simply inappropriate. 
And I don't know that we are dealing with what the President 
talks about on other issues, and that is the urgency of now. 
According to DOD and VA, under the original pilot program, the 
departments were able to meet their goals of reducing the 
average disability evaluation processing time for an active 
duty military below 295 days and reducing the average 
processing time for reservists to under 305 days. However, 
according to GAO, the average case processing time has steadily 
increased.
    Let me say that this is simply unacceptable. I am very 
concerned about the rapid increase in the average processing 
time to complete the IDES system. They are now well above the 
initial goals of 295 and 305 days. It appears as if DOD and VA 
are unable to replicate the success of the pilot program as the 
IDES program has expanded to additional sites.
    Mr. Medve, can you explain why this is the case?
    Mr. Medve. Congressman, we have noticed an increase. That 
is why, as Secretary Shinseki looks at this, he feels very 
strongly that this is a leadership issue from the lowest level 
up to the top. That is why we have instituted reviews at all 
levels to understand what each site is facing in terms of 
challenges, what resources they might need, how we can get 
those resources to them. If there are people that need to be 
added or if there is equipment that needs to be sent there, as 
I stated before, we have now instituted very senior leader 
sessions between the VA and the Army to examine each one of 
these sites in detail.
    Mr. Cummings. When can we expect an answer with regard to 
the results of what you are talking about? We went out to 
Walter Reed, and I cannot get this man off of my mind. We went 
and we saw a gentleman, and I feel emotional just talking about 
it, where he had both of his legs blown off. And one of them, 
it was cut so high, up to about the waist, they basically had 
nothing to strap it onto.
    And when I see people like that, and we talk about how much 
we love our veterans, how much we love our service members, we 
applaud what was just done by our Navy Seals and those brave 
men and women who resolved the issue of the last few days. And 
then it seems like suddenly we are talking about, we are going 
to meet, we are going to meet, we are going to meet. At some 
point, somebody has to say, wait a minute, these people are 
suffering now. Not yesterday, now. They have done their job.
    So this constant thing of let's talk, let's talk, let's 
talk, that is fine. But when I see numbers increasing, that is 
a problem. It seems like alarm bells should go off everywhere. 
I think that is why Mr. Chaffetz, Mr. Tierney, are so 
concerned, and all of us are concerned about these issues. I am 
just wondering if we are all getting it.
    So to constantly say, we are looking at it at the highest 
levels, this is the question: can you tell us when the chairman 
can bring you back before us with some answers to the questions 
that you just raised? In other words, why is this happening, 
how is it happening, how do we deal with it, so that we can get 
on with it. You know what I fear? I fear in 6 months we will be 
seeing the same stuff, and more people will have suffered.
    So can you give us a date, Mr. Chairman, this is just 
something I think we need to do, to have you all come back and 
give us some real answers and show us some progress? Can you do 
that for us?
    Mr. Medve. Mr. Chairman, I don't know if I can give you an 
exact date. I know that as we move out to----
    Mr. Cummings. Six months? How about 6 months? How about 
three?
    Mr. Medve. Mr. Chairman, we will come back any time we are 
invited to----
    Mr. Cummings. No, no, you are not listening to me. What I 
am asking you to do is give us, I don't want us to have a 
hearing and then we come back and hear the same stuff. So if 
you tell me 3 months, I would suggest to the chairman, and he 
will do what he chooses, I understand, Mr. Chairman, I will 
give you 3\1/2\ if you say 3; if you say 2, I will say 2\1/2\. 
But we have to have answers, and we have to act on this with 
the urgency of now.
    So how long will it take to get those questions answered 
that you just asked?
    Mr. Medve. All I can tell you, Mr. Chairman, is that we are 
holding people accountable now to meet those standards and we 
are working toward getting to each of those sites to meet the 
standards.
    Mr. Cummings. Mr. Chairman, I thank you for your 
indulgence. I just think, Mr. Chairman, if you don't mind, and 
Mr. Ranking Member, I really think we have to set some 
deadlines. Because other than that, we will be hearing this 
over and over and over again. I just hope that we can do that 
in a bipartisan way where we can get to the bottom of this.
    Mr. Tierney. If the gentleman would yield, and if the 
chairman would allow me to make a statement on that? Thank you.
    Look, I think we are maybe yelling at the wrong people on 
that. When we had the hearing out at Walter Reed, when this 
thing first broke, we wanted to hold people at the top 
accountable, not necessarily the people who are out there 
slugging away every trying to get these things done and taking 
the heat on that.
    We had the hearing in March 2007. The Army Surgeon General, 
who was the top Army officer responsible for the failures out 
there, resigned. That was followed by the commander of Walter 
Reed, the Army Secretary, they resigned. And in July 2007, the 
Secretary of Veterans Affairs.
    I suggest, Mr. Chairman, at the next hearing, we don't keep 
pestering this group of people who are out there working, 
trying to take orders. We kick it up a notch and we have some 
accountability for the people who are supposed to do this. We 
found out the Army Surgeon General lived across from Walter 
Reed, so he was a surgeon, he was a member of the services, and 
he was a neighbor, and hadn't visited. These things are just 
unacceptable.
    And to keep forcing these folks, the good folks that come 
in front of us and explain what is going wrong, they can only 
do so much unless somebody at the top takes responsibility for 
working out these things. If a large part of it is personnel, 
then these folks aren't necessarily going to be able to make 
that decision. Somebody has to call to Congress' attention that 
we need X amount of dollars for the following personnel, they 
are to be assigned to the following locations and move it on.
    So my respectful recommendation is that we consider 
bringing in folks at the top level decisionmaking thing and 
holding them responsible. I think the American people would 
have the same response, they will require some accountability 
on this.
    Mr. Chaffetz. I would concur with both the ranking member 
and Mr. Cummings as well. While I appreciate the two people who 
have been here testifying today, it is an embarrassment to the 
Veterans Affairs, it is an embarrassment to the Department of 
Defense, to not send the most senior-most people to this 
committee. They owe these responses to the American people. I 
would hope we could work in a bipartisan way. If we have to 
issue subpoenas to get them here, we will issue subpoenas.
    To have people come here who aren't even in the meeting on 
May 2nd, with all due respect, is an embarrassment to those two 
agencies. We need answers. This has gone on for years and years 
and years. And no longer will this committee put up with the 
tolerance of just saying, well, we are putting together and we 
are having meetings. It is not acceptable. It is absolutely not 
acceptable.
    We will work together in a bipartisan way to make that 
happen. I totally concur with the comments that were just made 
here.
    I would now like to recognize a member of our full 
committee, Ms. Buerkle from New York. She is also the chairman 
of the Veterans Affairs Subcommittee on Health. We will 
recognize her for a very lenient 5 minutes.
    Ms. Buerkle. Thank you very much, Mr. Chairman, and thank 
you for allowing me to participate in this hearing this 
morning.
    I come here as the chairman of the Subcommittee on Health 
for Veterans Affairs, and I sit here this morning appalled at 
what I am hearing. As was echoed by my colleagues, we can't 
hold you accountable, but we can hold the Veterans 
Administration and DOD. This is shameful. This is absolutely 
shameful. Our men and women provide and protect us, and the 
very least we can do is, when they come home, we can provide 
them with the services and the health care that they need.
    So I am trying to understand what happened here. In 2007, 
we identified problems. And then were there parallel systems? 
And now as of March there will be an integrated system? Am I 
understanding that correctly?
    Mr. Medve. I think we had, what we termed a legacy 
Disability Evaluation System, which the DOD used to put the 
service member through who was going to be determined unfit. 
And then they were separated from the service. At that point 
then, they filed a claim with the VA. So they had a medical 
examination under DOD, they were separated, they came to the 
VA, and they went through another medical examination in order 
to get a rating.
    What we have done since we have started both the pilot and 
now the full implementation is integrate both of those 
processes. So as a service member is identified as potentially 
being unfit for service, when they get into this process, they 
are then given one, we call it one medical exam, but it is 
composed of a number of them, because they may have a number of 
things, on the issues that make them unfit for continued 
service. At the same time, we also catalog all those things of 
which is service-connected for them. So we are doing all those 
examinations at one time.
    Once those are done, then the record is sent to the VA for 
a disability rating for us, and at the same time sent to the 
DOD for an evaluation on the unfitting conditions. So that is 
happening now. But we still have a mixture of both legacy and 
the new system in place.
    Ms. Buerkle. So earlier, Mr. Bird, you testified that when 
a veteran downloads their medical record, they will at least 
get the pharmaceutical portion and then any other information 
that they may have entered into the system. Is that correct?
    Mr. Bird. That is correct.
    Ms. Buerkle. So we are then asking someone, their 
laboratory results aren't in there? Physical examination? Any 
examinations conducted by a physician? If they downloaded their 
medical records, all they are getting are those two components?
    Mr. Bird. Yes, that is correct.
    Ms. Buerkle. Does anybody realize how ineffective and 
inefficient that is? How that just doesn't work? We just had a 
vet here sitting in this committee download her medical 
records, Healthy Vet. And all she got when she downloaded her 
medical records was her name and address and anything she 
entered into that record. She didn't choose to enter her blood 
type in, so that didn't show up.
    So it sounds to me like we haven't made a whole lot of 
progress. And what I hear from the veterans over and over and 
over again is they can't get processed out. They are in such a 
hurry, because this process takes so long, they are in such a 
hurry that they just, they wash their hands of it and they just 
move on because they want to go spend time with their family 
and process out.
    This isn't some theoretical problem we have here. This is 
very real. And I echo my trip to Walter Reed and to Bethesda 
and the suffering that these veterans are going through. The 
very least this Nation can do, the very least, is to get this 
process up and running and help them facilitate their discharge 
from their service to this country.
    I was an attorney and represented a large teaching 
hospital. We integrated electronic medical records, the whole 
world is doing it. The Department of Defense and Veterans 
Affairs and Veterans Administration should be able to do it. We 
have the resources, you have bipartisan support that you don't 
get anywhere else. When it comes to our veterans and our 
military, there is bipartisan support.
    There is no reason why we shouldn't be able to do this. I 
agree with my colleague, we need to set a timeframe, we need to 
get a time line. And I will echo what was said, we need to hold 
leadership responsible. I realize you folks are here just 
testifying. But we need to hold leadership responsible, because 
this is not theoretical, these are very real people, real 
veterans, and they are really suffering.
    I yield back. Thank you, Mr. Chairman.
    Mr. Chaffetz. Thank you. I appreciate that.
    Let me make sure I have these numbers right. Processing was 
taking about 540 days. But I believe, Mr. Bertoni, you say that 
is now back up to 394? The goal was, I believe the number I 
wrote down during part of the testimony was 394 days is the 
average time.
    Mr. Bertoni. Yes. Under the legacy system, they calculated 
a 540 day total processing time from referral to VA benefits. 
Right now, or as of March 31st, they are at 394 for active. If 
you are a marine, you are at 455 days. So these numbers are 
quickly closing in on the 540.
    Mr. Chaffetz. How do you explain this? You have a family 
whose loved one has been serving overseas. It takes over a year 
to get them through the process and get them a check? What 
would you say to those veterans and their families? Ms. 
Simpson, go ahead.
    Ms. Simpson. I don't think there is anything we could say 
that would make their situation better. I was not, I regret 
that I was not aware that the average time had gotten that 
high.
    Mr. Chaffetz. How is that? That scares me unto itself. I 
appreciate your candor. I think you are right, I don't think 
there is an excuse any more. These reports that came out in 
2004, then in 2007, then we are going to have a meeting. And I 
realize you are in the hot seat and it is much bigger and 
broader than just you. But you can understand why we are so 
infuriated. We are going backward at this point.
    Mr. Medve.
    Mr. Medve. Mr. Chairman, all I can tell you is, it is my 
responsibility, because I am part of the team to ensure that we 
are----
    Mr. Chaffetz. Were you at the meeting on May 2nd?
    Mr. Medve. I was.
    Mr. Chaffetz. What was said? What were the conclusions?
    Mr. Medve. The two topics they covered were IDES and 
electronic health records. And there is commitment by both 
Secretaries to improve IDES and to work toward a----
    Mr. Chaffetz. So they sat down and said, we are committed 
to this, just like they had said before. There had to be some 
more detail or goals or particulars that came out of that 
meeting.
    Mr. Medve. We have been charged with getting the system 
more efficient and effective and get----
    Mr. Chaffetz. But that was the goal before, was it not? 
Come on, there had to be something new that came out of this. 
When is this thing going to work, fully work, like when can you 
say, this thing works?
    Mr. Medve. Mr. Chairman, I can't give you a specific date.
    Mr. Chaffetz. You are in a meeting with the Secretaries, we 
expect to hear an understanding of what the conclusion of that 
was. You have no specifics to share with us as to what was 
said?
    Mr. Medve. Mr. Chairman----
    Mr. Chaffetz. How long did the meeting last?
    Mr. Medve. An hour.
    Mr. Chaffetz. What specifics came out of that meeting? I 
have to believe that two Secretaries, in the midst of tackling 
Osama bin Laden, came up with some sort of conclusions and 
didn't just waste their time in this meeting.
    Mr. Medve. Mr. Chairman, we are working toward getting this 
system for IDES as good as we can get it. That is the 
commitment.
    Mr. Chaffetz. Now, one of the goals that the Secretaries 
put out is that they wanted to reducing the waiting time to 75 
to 150 days. How in the world did they come up with that? We 
are still over a year and the number is sliding backward. How 
did they come to that conclusion?
    Mr. Medve. Sir, that is an aspiration. We are looking 
closely at what we can actually achieve in terms of time. 
Embedded in this total time we do have appellate rights for the 
service members, we have transition----
    Mr. Chaffetz. I didn't come up with the goal. They did. 
When would we expect, when can service men and women expect 
that we would meet the goal laid out by Secretaries Gates and 
Shinseki?
    Mr. Medve. I can't give you a specific date, Mr. Chairman.
    Mr. Chaffetz. Can you give me a year?
    Mr. Medve. We are committed to come up with a 
recommendation----
    Mr. Chaffetz. The answer is no, isn't it? The answer is no. 
And that's the frustration. You can't even tell me what year 
you think we are going to accomplish this. And as was pointed 
out here earlier--I am beyond words to understand why this is 
taking so long. We were chatting, and maybe one of the things 
we should do is, what if we went back and just photocopied the 
records and put them on 3 x 5 cards? Would that speed up the 
process at this point?
    Mr. Medve. Mr. Chairman, if there is an impression that 
there aren't records, we----
    Mr. Chaffetz. No, there are records. They just can't seem 
to talk to each other. We can't get them to go from the DOD to 
the VA.
    Mr. Medve. We do have, when a service member transitions 
out to veteran standard, their electronic versions of what they 
have in their medical records are sent to a data warehouse that 
the VA can access, if you apply for----
    Mr. Chaffetz. We will get through the minutiae. It scares 
me that you cannot even tell me what year you think we are 
going to get to these ``aspirational'' days. I think the 
servicemen and women are being misled in this understanding 
that this is accelerating, when the reality is, the numbers are 
getting worse. The wait times are getting worse. And we can't 
even, we have meetings with the Cabinet Secretaries that last 
for an hour, and they have aspirational goals, oh, it is going 
to get better.
    Well, it is not getting better. And that is why we need 
more definitive answers.
    I am over my time and will yield to the gentleman from 
Massachusetts, Mr. Tierney.
    Mr. Tierney. Thank you. Before I forget, Mr. Chairman, may 
I ask unanimous consent that my opening statement be submitted 
into the record?
    Mr. Chaffetz. Absolutely.
    [The prepared statement of Hon. John F. Tierney follows:]

    [GRAPHIC] [TIFF OMITTED] T8045.048
    
    [GRAPHIC] [TIFF OMITTED] T8045.049
    
    Mr. Tierney. Thank you.
    I would like to move on to how we are going to resolve 
this, if we can. Have we, and anybody that feels qualified can 
answer this, have we identified all of the technical problems 
that exist in this system, and have we identified all the 
personnel problems and whatever other problems are there? Do we 
know where the problems lie?
    Mr. Medve. We have identified those areas resource-wise, 
facility-wise, and all, that we examine prior to any site going 
into the new process. We have actually held up sites because 
they either didn't have the right number of personnel or the 
right number of facilities. Because they weren't ready. So yes, 
I think we have----
    Mr. Tierney. You think we know what the challenges are, and 
if we solve those challenges we will be doing better?
    Mr. Medve. We know what the challenges are, and as we are 
moving forward with implementation, we are holding people to 
those standards, and we are not moving into it until they are 
read.
    Mr. Tierney. So is there a plan for each of those areas, 
and how are you going to go bout solving the technology 
problems? How are you going to go about solving the personnel 
problems, whatever? Is there a large plan on that, an overlying 
plan?
    Mr. Medve. Each site develops their own assessment. They 
develop their own concept plan of how to----
    Mr. Tierney. But I would hope there is somebody a step up 
from that making sure that each site does that.
    Mr. Medve. There are, absolutely.
    Mr. Tierney. Who is responsible for that? Who is the 
ultimate go-to person that anybody would go to for an answer or 
to report the progress on each of these sites?
    Mr. Medve. Each of these sites are briefed to both deputy 
secretaries in the Senior Oversight Council.
    Mr. Tierney. And do those deputy secretaries have the final 
say in what software is used, what hardware is used, the 
numbers of personnel that are hired and where they are 
situated?
    Mr. Medve. They don't get to that level of detail. Because 
each of the services in the VA has their responsibility.
    Mr. Tierney. So you think the decisionmaking and all that 
steps a level lower than that?
    Mr. Medve. Yes, in terms of the recommendations for that, 
what gets briefed to the deputy secretaries are, are you on 
target, do you have the number of resources----
    Mr. Tierney. So it stops at the deputy secretaries, they 
know what the targets are and it is their responsibility to 
hold----
    Mr. Medve. But I thought you were asking number of 
computers and that sort of thing.
    Mr. Tierney. No, no, but I want the level of the person who 
says, have you solved this problem in hardware, have you solved 
this problem in software, have you got the right personnel in 
place, are we deciding whether it is cheaper to fly these 
people to a central location to get all the myriad physical and 
mental exams, or is it better to try to have that kind of 
personnel available at the site, those types of things, it is 
the deputy secretary level?
    Mr. Medve. There is a brief during the SOC.
    Mr. Tierney. And we think we have identified what the 
challenges are, that now just somebody has to monitor it for 
implementation and resolution?
    Mr. Medve. Yes, sir, and that is where I think we are at 
now.
    Mr. Tierney. And we know which services, which service 
branches, aren't doing as well as others, for instance, Air 
Force is not doing as well as Army?
    Mr. Medve. Correct.
    Mr. Tierney. One of the things that disturbed me in reading 
this was that when we didn't meet the goals, instead of 
deciding how we were going to meet them, we lowered the goal. I 
don't think that is the preferred path here, and I hope it is 
going to be reversed on that.
    So if we really wanted an answer, instead of pounding at 
you and Ms. Simpson, it would be better to go to the deputy 
secretaries and find out just how much they are riding this. It 
seems to me if you really want to prioritize something, and you 
think this is the important thing, then a deputy secretary 
would be having a meeting every week, not every quarter or half 
year, but every week, asking the responsible people that report 
to them, just where are we on this and why aren't we further 
along. Does that sound reasonable, if we were to question those 
folks?
    Mr. Medve. You can be assured that we are having those 
accountability meetings at a variety of levels currently.
    Mr. Tierney. Do you have access to whatever kind of 
technical expertise you think you might need, in other words, 
outside computer analysts, computer specialists, computer 
entrepreneurs, whatever, are you able to resource those people 
and get them in to discuss with you some of the larger, more 
technical problems that you might be having challenges with?
    Mr. Medve. I can't speak for our IT people, but we have set 
up workgroups to look at the technical challenges for the 
existing IT systems we have supporting this, to see where we 
can improve it.
    Mr. Tierney. And those support groups go outside of just 
what we have in the Department of Defense and VA? We use other 
people as well?
    Mr. Medve. I would assume so.
    Mr. Tierney. What recommendations would you have for this 
committee in terms of, how can we best drill down on this and 
get ourselves an answer as to when we could expect this thing 
to be moving smoothly?
    Mr. Medve. All I can tell you, Mr. Ranking Member, is that 
we are committed to implementing this through the rest of the 
fiscal year. As you know, each case takes a number of times. So 
in terms of getting more data, the sites we are bringing online 
now are at least, even if we hit our goal, 295 days down the 
line until we have any data in order to see if they are on 
target or off target with terms of the whole process. We can 
start to get glimpses in terms of how long it is taking to do 
the exams and those incremental pieces. But it does take a 
while.
    Mr. Tierney. I understand the implications of each case and 
how sensitive that is. But Mr. Bertoni, do you get the feel 
that there is some sort of systematic approach to this, that 
somebody has an overarching plan to get this resolve on the 
level of systems and plans as opposed to the individual cases?
    Mr. Bertoni. I testified in December that I had not seen 
what I call a service delivery plan that puts all these pieces 
together.
    Mr. Tierney. Exactly.
    Mr. Bertoni. Would that be great for us to get our hands on 
and to assess? Absolutely.
    Mr. Tierney. Who do you think would be responsible for 
doing that from your vantage point, when you look at what is 
being done and who is responsible for whatever over there, who 
would you look to for that?
    Mr. Bertoni. I think there are some very talented people at 
VA and DOD that we have been working with that know this 
program, know the data. And those folks would be the people to 
do that.
    Mr. Tierney. And who do they answer to?
    Mr. Bertoni. Mr. Medve, for one. [Laughter.]
    Mr. Tierney. OK, Mr. Medve. And who do you answer to?
    Mr. Medve. Sir, I answer to the Assistant Secretary for 
Planning and Policy.
    Mr. Tierney. The Assistant Secretary.
    Mr. Medve. Yes, Assistant Secretary.
    Mr. Tierney. And that person reports to the Deputy?
    Mr. Medve. Yes, sir.
    Mr. Tierney. Thank you all very much. I appreciate your 
testimony.
    Mr. Chaffetz. Thank you. I would like to maybe just go down 
the row here, and just one last thing. I want to be very 
crystal clear, just the succinct, simple biggest problems and 
challenges that you see, and the recommendation or suggestion 
of what we need to have happen.
    What I would like to do is start with Ms. Simpson and Mr. 
Medve, then go to Mr. Williamson, Mr. Bird and end on Mr. 
Bertoni, if we could, please.
    Ms. Simpson. Thank you, Mr. Chairman.
    My understanding is that the access to data, making sure 
that information is accurate, valid and succinct and that the 
metrics are held to, that is one thing. Second thing, to take a 
look at each of the sites, at each step in the process, and 
find out what specifically is going on to account for the 
length of time. I knew it was higher than 295, but I wasn't 
aware it was that high, that was just mentioned earlier.
    And then the followup that is required to actually get to 
the place of the electronic health record, that we have very 
senior IT specialists who have reach-back capability to outside 
experts, outside the Federal Government, to be able to provide 
that foundation to use those records.
    Mr. Chaffetz. Thank you.
    Mr. Medve. Mr. Chairman, I would echo what Ms. Simpson 
said, in terms of the process. We are taking a hard look at 
ensuring that we have the requisite amount of medical personnel 
and outsourced personnel to do that. We are also monitoring 
that very closely to ensure that we have the required number. I 
am happy to come back again as we move through this 
implementation to show you how things are going and to brief 
the staff.
    Mr. Chaffetz. Thank you.
    Mr. Williamson.
    Mr. Williamson. I would say from my standpoint, there are 
IT issues associated with the wounded warrior programs that 
would allow them to communicate and talk with one another. 
Without that, you are going to get confusion and consternation 
and conflicting kinds of recovery plans for our veterans and 
service members.
    Mr. Chaffetz. How bad is the problem and how close are we 
to solving it?
    Mr. Williamson. We are a ways away. There are some things 
that are going on right now in terms of the Federal Recovery 
Coordination program, that is a VA program, that requires DOD 
cooperation. It is the same thing you have been talking about 
throughout here.
    Mr. Chaffetz. Thank you.
    Mr. Bird.
    Mr. Bird. Developing large scale IT solutions is 
challenging enough for anybody. The Department of Defense has 
capabilities and VA has capabilities. They need to establish 
joint capabilities to tackle some of these large scale 
problems.
    Mr. Chaffetz. Have they started that process?
    Mr. Bird. As I mentioned earlier, they started over 10 
years ago. And they have frankly slowly been increasing their 
capabilities as well as increasing their capabilities to work 
together to tackle some of the challenges.
    Mr. Chaffetz. But we are nowhere close to getting to the 
finish line?
    Mr. Bird. It is difficult to say, because the finish line 
has not yet been defined.
    Mr. Chaffetz. Who should define that? Who should define the 
finish line?
    Mr. Bird. The department should define the finish line.
    Mr. Chaffetz. The Secretaries, is what we need. That is 
encouraging.
    Mr. Bertoni.
    Mr. Bertoni. I think over the last several years, we have 
identified specific challenges I think that have impacted this 
program negatively. To DOD and VA's credit, I think they have 
tried to get in front of many of those. In particular, the 
issue of standing up sites, readiness, lookbacks, making sure 
that down the road, they are going to have appropriate staff in 
play.
    Beyond that, I think there needs to be additional data 
collection at a more granular level. You need to know at 
particular site level locations, what are your ratios looking 
like? What are the problems with the diagnoses, problems with 
the exam summaries? Those are the things you need to know that 
are bogging the system down. Right now, that capability is not 
there.
    So that is something that we definitely would see them do 
more granular data analysis and collection and monitoring, so 
they can make the adjustments. And this way, you could get in 
front of problems. You don't have to wait until you are 295 
days down the road to say, we have a problem with ratings, we 
have a problem with exam summaries. But if you start to see 
this emerging, you can make the adjustments, you can apply the 
training and you can apply the technology to get in front of 
those problems.
    Mr. Chaffetz. Thank you. I want to thank you all for your 
participation. I know your heart is in the right spot in all 
these things.
    It is terribly frustrating, it is terribly frustrating. 
These men and women, our American military does amazing things. 
We just saw that play out. But when it comes time, when they 
come home to take care of, we are failing. And it is about time 
that we at the Secretary level, at the Presidential level, that 
we get somebody who is irate who can actually move the ball 
forward and do some things to actually make this thing happen.
    I know that members on this committee, I know Mr. Tierney 
has worked tirelessly on this. I will continue to pour my 
efforts into it. But we have to demand that we actually achieve 
these goals. That is going to take some serious leadership. I 
think that leadership is lacking within the highest levels with 
the Department of Defense and within the Veterans 
Administration.
    I thank you all again for your information. You are pouring 
your hearts, like I said, in the right direction. We look 
forward, unfortunately, we will be having another one of these 
hearings again. But hopefully the news will be better and we 
will be making more progress.
    Thank you again for your expertise and your testimony 
today. The committee stands adjourned.
    [Whereupon, at 11:17 a.m., the committee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
